 Report on Internal Controls Over
      Performance Measures
Report Number: A090022/B/F/F09002
        November 7, 2008
We conducted this review in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.


Results of Audit

The internal controls designed by the OCFO over GSA’s performance measure
data reported in the Management Discussion and Analysis Section of the
Agency’s Fiscal Year 2008 Performance and Accountability Report are operating
effectively.

In accordance with GSA Order CFO 2170.1, “Performance Measurement Data
Verification and Validation Procedures,” a cyclical review of the performance
measure data reported by each Service and Staff Office is required. Our review
found that in accordance with this Order, the OCFO performed and documented
the required review of performance measure data, and that the conclusions
therein were adequately supported. Specifically, for the key measure selected
for testing, we found that the responses provided on the Verification and
Validation survey were sufficiently supported.

We would like to thank the staff of the Office of the Chief Financial Officer for the
assistance provided during our review. Should you or your staff have any
questions, please feel free to contact me directly or the audit manager for this
review, Anthony Mitchell, on (202) 501-0006.




                                         2
                            Report on Internal Controls Over
                                 Performance Measures
                           Report Number: A090022/B/F/F09002
                                   November 7, 2008


Report Distribution                                                   Copies

Acting Administrator (A)                                               3

Chief Financial Officer (B)                                            3

Director, Internal Control & Audit Division (BEI)                      1

Inspector General (J)                                                  1

Deputy Inspector General (JD)                                          1

Special Assistant for Communications (J)                               1

Special Assistant to the Inspector General (J)                         1

Acting Assistant Inspector General for Auditing (JA)                   2

Acting Assistant Inspector General for Investigation (JI)              1

Acting Director, Audit Planning, Policy, and Operations Staff (JAO)    1
